*

CERTIFICATE OF SERVICE

I, Felix 0. Brown Jr., do herein certify that a true cbpy of this Petition
For A Writ Of Certiorari has been served via U.S. Mail, upon the Respondent's
legal representative, Assistant Attorney General of Ohio, Jerri L. Fosnaught at
150 East Gay Street, 16th Floor, Columbus, Ohio 43215, on this

day

December, 2020.

/V

£

Felix^O. Brown Jr. #3J^b76

PETITIONER IN PRO SE.

DECLARATION

I, Felix 0. Brown Jr., do herein declare in accordance with 28 U.S.C.
§1746 and !§ U.S.C. §1621 under the penalty of perjury that all facts contained
herein this Writ of Certiorari are true and correct.
I further declare under perjury that I surrendered the original and an
additional cover page over to prison authorities to mail, via certified mail,
to the United States Supreme Court on this

££*2-

day of December 2020.

Felix 0. Brown Jr.
PETITIONER IN PRO SE.
Vhere it is a fact that not one of Petitioner's applications for a CCA has ever been granted. Period.
38

